   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



November 5, 2009

Report Number: A-07-09-02760

Ms. Donna Dickinson
Program Director
Cahaba Safeguard Administrators, LLC
2803 Slater Road, Suite 215
Morrisville, North Carolina 27560

Dear Ms. Dickinson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Geographic Classification of Thomasville
Medical Center for Medicare Operating Disproportionate Share Hospital Payment.” We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02760 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Donna Dickinson

Direct Reply to HHS Action Official:

Mr. Jonathan Blum
Acting Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
200 Independence Avenue, SW
314-G, HHH Building
Washington, DC 20201
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


      REVIEW OF GEOGRAPHIC
  CLASSIFICATION OF THOMASVILLE
  MEDICAL CENTER FOR MEDICARE
OPERATING DISPROPORTIONATE SHARE
        HOSPITAL PAYMENT




                         Daniel R. Levinson
                          Inspector General

                          November 2009
                          A-07-09-02760
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 or older, people under age 65 with certain disabilities, and people of
all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a kidney
transplant). The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. (Section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 requires CMS to transfer the functions of fiscal
intermediaries to MACs by October 2011.) Each cost report is based on the hospital’s financial
and statistical records, and the hospital attests to the accuracy of the data when submitting its
cost report. After acceptance of the cost report, the fiscal intermediary performs a tentative
settlement. Before making final settlement, the fiscal intermediary reviews the cost report and, if
necessary, conducts an audit. The fiscal intermediary then issues a notice of program
reimbursement. As the final settlement document, the notice of program reimbursement shows
whether the Medicare program owes the hospital or the hospital owes the Medicare program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Thomasville Medical Center (Thomasville) is a 149 bed, acute-care hospital located in
Thomasville, North Carolina. Thomasville claimed an operating DSH adjustment of $1,134,996
on its cost report for the fiscal year ending December 31, 2004.

For the cost report reviewed, Thomasville’s fiscal intermediary was Palmetto GBA, LLC.
However, Cahaba Safeguard Administrators, LLC (Cahaba) has a contract with CMS to perform
cost report audit and reimbursement activities for providers in North Carolina. Accordingly, we
are issuing our report to Cahaba. Cahaba’s main office for audit and reimbursement is based in
Morrisville, North Carolina.

OBJECTIVE

Our objective was to determine whether the geographic classifications used by Cahaba to
calculate the Medicare operating DSH adjustment resulted in an overpayment.




                                               i
SUMMARY OF FINDINGS

Geographic classifications used by Cahaba to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $1,134,996 that
Thomasville claimed on its cost report for the fiscal year ending December 31, 2004, $24,454
was excessive because Cahaba calculated the operating DSH adjustment as if the hospital was
urban for the entire cost report period. However, Thomasville was rural for the period
October 1, 2004, through December 31, 2004. This resulted in an operating DSH overpayment
of $24,454.

This overpayment occurred because Cahaba’s controls did not always ensure that hospitals
received Medicare operating DSH adjustments based upon the correct geographic classification.

RECOMMENDATION

We recommend that Cahaba recover the $24,454 in Medicare operating DSH overpayment from
Thomasville.

CAHABA SAFEGUARD ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba agreed with our finding that the incorrect
operating DSH formula was used, and stated that it had taken necessary action to recover the
overpayment from Thomasville. However, Cahaba disagreed with the statement in our draft
report that Cahaba’s controls were insufficient. Cahaba described those controls and added that
the overpayment we identified was relatively immaterial when compared to the total operating
DSH adjustment. Cahaba’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Cahaba’s comments, we revised our report as it pertains to Cahaba’s controls in
order to describe the cause of the overpayment more precisely.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATION...............................................................................3

          FEDERAL REQUIREMENTS........................................................................................3

          OVERPAYMENT RECEIVED...................................................................................... 3

          RECOMMENDATION ...................................................................................................4

          CAHABA SAFEGUARD ADMINISTRATORS, LLC, COMMENTS .........................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4

APPENDIX

          CAHABA SAFEGUARD ADMINISTRATORS, LLC, COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. 1 Each cost report is based on the hospital’s
financial and statistical records, and the hospital attests to the accuracy of the data when
submitting its cost report. After acceptance of the cost report, the fiscal intermediary performs a
tentative settlement. Before making final settlement, the fiscal intermediary reviews the cost
report and, if necessary, conducts an audit. The fiscal intermediary then issues a notice of
program reimbursement. As the final settlement document, the notice of program reimbursement
shows whether the Medicare program owes the hospital or the hospital owes the Medicare
program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Thomasville Medical Center (Thomasville) is a 149 bed, acute-care hospital located in
Thomasville, North Carolina. Thomasville claimed an operating DSH adjustment of $1,134,996
on its cost report for the fiscal year ending December 31, 2004.

For the cost report reviewed, Thomasville’s fiscal intermediary was Palmetto GBA, LLC.
However, Cahaba Safeguard Administrators, LLC (Cahaba) has a contract with CMS to perform
cost report audit and reimbursement activities for providers in North Carolina. Accordingly, we
are issuing our report to Cahaba. Cahaba’s main office for audit and reimbursement is based in
Morrisville, North Carolina.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the geographic classifications used by Cahaba to
calculate the Medicare operating DSH adjustment resulted in an overpayment.

1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to MACs by October 2011.


                                                      1
Scope

We reviewed the $1,134,996 Medicare operating DSH adjustment claimed on Thomasville’s cost
report for the fiscal year ending December 31, 2004.

We did not verify the accuracy of the factors in the Medicare operating DSH computation, other
than to verify the accuracy of the geographic classification of the hospital.

We conducted our audit from June through December 2008.

Methodology

To accomplish our objective, we did the following:

       We reviewed applicable Federal laws and regulations.

       We interviewed CMS officials to gain an understanding of how Medicare operating DSH
        payments are calculated.

       We obtained all cost reports from the Healthcare Cost Report Information System 2 for
        acute-care inpatient hospitals whose cost reporting periods ended in calendar years 2003
        through 2006 as of March 31, 2007.

       We determined the geographic classification for all hospitals using data from the most
        recent U.S. Census to identify whether particular hospitals were geographically classified
        as rural or urban during our audit period. We then accounted for reclassifications done
        by the Medicare Geographic Classification Review Board and “Lugar” reclassifications
        (discussed below) in accordance with Section 1886(d)(8)(B) of the Act.

       We used the cost report data to recalculate the operating DSH payments based upon these
        geographic classifications to identify any hospitals that may have received an
        overpayment due to using an incorrect geographic classification. As a result of this
        process, we selected Thomasville’s cost report for the fiscal year ending
        December 31, 2004, for further review.

       We contacted Cahaba and confirmed, for the applicable Federal fiscal years, how
        Thomasville was geographically classified and determined how Cahaba calculated the
        operating DSH adjustment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

2
 The Healthcare Cost Report Information System is a national database containing financial and statistical
information extracted from hospital cost reports.


                                                         2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Geographic classifications used by Cahaba to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $1,134,996 that
Thomasville claimed on its cost report for the fiscal year ending December 31, 2004, $24,454
was excessive because Cahaba calculated the operating DSH adjustment as if the hospital was
urban for the entire cost report period. However, Thomasville was rural for the period
October 1, 2004, through December 31, 2004. This resulted in an operating DSH overpayment
of $24,454.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.106, hospitals that serve a disproportionate number of low-income
patients may receive an additional Medicare operating DSH payment. Determinations as to
whether a hospital qualifies for a Medicare operating DSH payment and the size of the payment
depend in part on whether the hospital is in an urban area or a rural area.

The geographic classifications used to determine whether the hospital is in an urban area or a
rural area are based upon the definitions in 42 CFR §§ 412.62(f) or 412.64, which generally
identify an urban area as a metropolitan statistical area as defined by the Office of Management
and Budget (OMB). On June 6, 2003, OMB began classifying geographic areas using the core-
based statistical areas identified on the decennial census conducted in 2000. CMS deferred
implementation of these classifications until October 1, 2004.

A hospital’s geographic classification can be reclassified by the Medicare Geographic
Classification Review Board through an application process in accordance with 42 CFR
§ 412.230. A hospital’s geographic classification can also be deemed urban if that
hospital meets certain criteria based on residents’ commuting patterns and population density.
These “Lugar” hospitals are located in rural counties and have been reclassified as urban under
§ 1886(d)(8)(B) of the Act.

OVERPAYMENT RECEIVED

Thomasville claimed an operating DSH overpayment of $24,454 because Cahaba incorrectly
calculated the operating DSH adjustment as if Thomasville was urban for the entire cost report
period. However, Thomasville was rural for the period October 1, 2004, through
December 31, 2004, and for that time period Cahaba should have calculated the operating DSH
adjustment accordingly.

The OMB definitions then in effect geographically classified Thomasville as an urban hospital
for the period January 1, 2004, through September 30, 2004. Effective October 1, 2004,
Thomasville became a rural hospital with the transition to the use of core-based statistical areas




                                                 3
identified on the decennial census conducted in 2000. However, Cahaba calculated the operating
DSH payment for the entire fiscal year ending December 31, 2004, as though Thomasville was
urban for the entire cost report period.

This overpayment occurred because Cahaba’s controls did not always ensure that hospitals
received Medicare operating DSH adjustments based upon the correct geographic classification.

RECOMMENDATION

We recommend that Cahaba recover the $24,454 in Medicare operating DSH overpayment from
Thomasville.

CAHABA SAFEGUARD ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba agreed with our finding that the incorrect
operating DSH formula was used, and stated that it had taken necessary action to recover the
overpayment from Thomasville. However, Cahaba disagreed with the statement in our draft
report that Cahaba’s controls were insufficient. Cahaba described those controls and added that
the overpayment we identified was relatively immaterial when compared to the total operating
DSH adjustment. Cahaba’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Cahaba’s comments, we revised our report as it pertains to Cahaba’s controls in
order to describe the cause of the overpayment more precisely.




                                               4
APPENDIX
                                                                                                     Page 1 of2


                   APPENDIX: AUDITEE COMMENTS 



        Cahaba Safeguard
         ADMINISTRATORS,       lLC~


August 27, 2009

Mr. Patrick J. Cogley
Regionallnspeclor General
  For Audit Services
601 East 12~ Street
Room 0429
Kansas City, Missouri 64106

Rc: 	   DIG Report Ii A-07-09-02760
        Thomasvi!!e Medical Center, Pro.vidcrNo. 34-0085, FYE 1213112004

Dear Mr. Cogley:

I have reviewed the DIG report on the disproportionate share hospital (DSH) payment formula
used 10 final-settle the FYE 12/3112004 Medicare cost report of Thomasville Medical Cenler,
provider 34-0085.


We agree with the finding that the incOlTecl D$H formula was used. The DSH fonnula for urban
hospitals was IIsed for the entire year. DSH payments should have been calculated using the
DSI·I formula for rural hospitals for Ihe 3-monlh period of I 0/112004 through 1213 112004 and the
DSI·I formula for urban hospitals for the 9-month period of 111/2004 through 913012004, with an
additional DSH adjustment for 213 of the difference between the urban and rural operating DSH
for the period in which the provider became rura l (October to December 2004) under the Core
Based Statistical Area (CBSA) definition.


Our corrective action is to reopen this cost report to correct the DS H calculation. The notice of
reopening was issued to the hospital on August 27,2009. We project the revised cost report
SClllement to be issued by December 31 , 2009.


We do not agree with the OIG statement that insufficient controls are in place to ensure hospitals
receive the correct Medicare DSH adjuslmenl. CSA requires a supervisory review of all desk
reviews and audits prior to final scttlement to assure accurate cost report selllement. CSA has an
Internal Quality Assurance Auditor that performs scheduled reviews of audit work to ensure
audi t procedures are fo llowed and accurate scnlemcnt determinations are made. OUT controls are
sufficient, but sufficient controls do not assure 100% accuracy. This error was relatively
immaterial ($24,454 out of total DSH payment of $1, 134,996 = 2% overpayment) and is
attributed to human error and a compte)!; variation of the DSH Medicare fo rmula that applied to 1
hospital in the state.




                       En &urlng the tntegrlty   of the Medicare Program
                                                           Page 2 of2




Mt.Cogley
Page 2
August 27, 2009


Thank you for the opportunity to commenl on this report.

Since~ly,




Donna Dickinson, Program Director
Cahaba Safeguard AdminiSlmtors, Lt C

cc: File Copy
